                                              National Archives and Records
                                                             Administration
                                                                                       8601 Adelphi Road
                                                                      College Park, Maryland 20740-6001
Date       : June 23, 2010
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : OIG Report No. 10-15, Audit of the National Historical Publications and Records
             Commission Grant No. RB-50061-09 Historical Society of Washington, D.C.

To         : Kathleen Williams—Executive Director, National
             Historical Publications and Records Commission

The Office of the Inspector General (OIG) completed an audit of a grant awarded by National
Archives and Records Administration’s (NARA's) National Historical Publications and Records
Commission (NHPRC) to the Historical Society of Washington, D.C. (HSW) entitled Archival
and Audiovisual Collections Project. The grant award amount is $155,500 for a two year period
covering July 1, 2009 to June 30, 2011. HSW received two advancements to date totaling
$47,568 1. The performance objective of the project was to improve public access to the archival
and audiovisual collections held by HSW.

This audit report focuses on the results of our audit of the HSW grant and is part of a larger audit
of NHPRC management controls over its grant process. As part of the larger audit we selected
several grants for review. The objective of this portion of the review was to determine whether
grant funds awarded and advanced to HSW were utilized and expended in accordance with
federal guidelines. Management control issues noted in the HSW grant review, as well as in the
other grants reviewed, will be incorporated in a later report.

Results of Audit Effort
We questioned $27,159 2; the entire cost incurred to date on this grant due to misuse of grant
funds 3 and poor management of the grant to include a lack of supporting documentation for labor

1
  HSW received two grant advance payments in the amounts of $20,192 (July 1, 2009 through December 31, 2009)
and $27,376 (for January 1, 2010 through March 31, 2010).
2
  Of the $47,568 advanced, HSW paid the Project Archivist’s net salary ($15,860) and benefits ($1,774) through the
end of February for a total paid amount of $17,634. Employee tax withholding ($7,217) and employer tax liabilities
($2,308—estimated by auditor as HSW did not have a payroll schedule available) have not been paid (totaling
$9,525). The total labor expense without appropriate documentation is $27,159 (see Attachment 3).
3
  On February 22, 2010, the NARA OIG Office of Audits asked the OIG Office of Investigations to investigate the
possible misuse of grant funds by HSW. The OIG investigators substantiated HSW misused federal grant funds and
issued a Report of Investigation on April 21, 2010 (file number 10-008-I).


                                                        1
                                  National Archives and Records Administration
cost (see Attachment 2). Office of Management and Budget (OMB) Circular A-110 states grant
recipients shall safeguard federal funds and assure they are used solely for authorized purposes
and OMB Circular A-122 defines the requirements for grantees to maintain financial records for
all grant expenditures. The use of federal funds for unauthorized purposes can result in a loss of
funding or in the extreme circumstance criminal charges while unsupported expenditures can be
disallowed. We recommend NHPRC either (a) terminate this grant or (b) temporarily withhold
cash payments on this grant until all accounting/grant management deficiencies identified in this
report are corrected by HSW and place HSW on Special Conditions 4 status for the remainder of
the grant project.

Misuse of Federal Grant Funds
HSW used federal grant funds to pay organizational expenditures not associated with the grant
program in lieu of paying for authorized grant program expenses. Grant program expenses went
unpaid because HSW, experiencing financial instability, used advanced federal funds to pay
other expenditures they deemed more urgent. Federal regulations require grant recipients to
ensure federal funds are used for their intended purpose. Using federal grant monies for unjust
enrichment, personal use, or other than their intended purpose is a form of theft that is subject to
potential criminal and civil prosecution under federal law.

During the course of the audit, the HSW Project Director spoke with NHPRC staff and stated
HSW had used grant monies for HSW expenses not related to the grant program. The Project
Director explained that HSW lacked funds to pay necessary operating expenses and a
misunderstanding with a new staff accountant led to grant funds being used for “more dire
needs.” Thus, HSW was unable to pay the Project Archivist on time. As a result of this
admission, the OIG Office of Audits notified the OIG Office of Investigation. The Office of
Investigation substantiated that HSW, under the direction of the Executive Director, misused
federal grant funds. The investigation did not reveal direct evidence to support intentional
misuse of federal grant funds by any employee or contract employee of HSW; however, the
evidence suggests that particular HSW staff were aware their actions relating to the NARA grant
funds were inappropriate. The details of this case were presented to an Assistant United States
Attorney in the District of Columbia who declined federal prosecution of this case due in large
part to the small amount of funds misused.

The grant agreement identified $150,000 (of the 155,500 total grant award) was authorized for
labor expenses for a Project Archivist 5 that HSW specifically hired to complete the performance
objectives of this grant. However, the Project Archivist was not paid on time even though a
grant advance was received prior to the end of the first payroll period. The HSW Contract
Accountant stated she was not informed HSW would be receiving grant funds and that she used
the grant advance to pay other HSW operating expenses. The Project Archivist received her first
payroll check seven days late and received the next two payroll checks on time. However, over

4
  OMB Circular A-110 states the granting federal agency may impose additional monitoring requirements (special
conditions) for those recipients with a financial management system that does not meet federal standards or is not
financially stable.
5
  The Project Archivist’s official first day of employment was October 5, 2009, and their first payroll period ended
October 21, 2009. HSW received the first grant fund advance of $20,192 on October 6, 2009.


                                                         2
                                   National Archives and Records Administration
the next five payroll cycles the Project Archivist was either not paid or not paid in accordance
with her hiring agreement.

While the initial use of federal funds may have partly been a mistake, it is clear HSW officials
were made aware the Project Archivist had not been paid according to the federal grant
agreement. The Project Archivist initiated timely meetings 6 with key HSW personnel to discuss
her expectation for timely paychecks and threatened to contact NHPRC regarding her lack of
payment. The Project Director stated she informed the Contract Accountant and the Executive
Director that grant funds were to be used exclusively for the salary and benefit payments to the
Project Archivist. After the aforementioned meetings, HSW deposited $225,000 7 into their
account by December 24th, 2009. The HSW Executive Director stated HSW’s financial burdens
were caused by the delay of a one million dollar grant awarded by the city of Washington D.C.
that HSW believed would be entirely funded in November. The December deposits (including
the first installment of the D.C. city grant) were more than sufficient to replenish the balance of
the federal advance and bring the Project Archivist’s pay current. However, HSW did not bring
the Project Archivist’s pay current 8 until January 27, 2010, thus, failing an opportunity to
replenish misused federal funds and initiate prudent management of grant funds in accordance
with federal law.

Lack of Appropriate Oversight and Management of Grant Funds
HSW lacks appropriate administrative capability to adequately manage the Archival and
Audiovisual Collections Project grant. Specifically, our review disclosed HSW could not
adequately (1) safeguard federal funds and ensure they were used solely for authorized purposes
(as described above) and (2) comply with federal administrative regulations regarding financial
record keeping, including maintenance of support documentation for all expenditures of federal
funds and cost sharing obligations. Federal regulations require grant recipients to ensure federal
funds are used for their intended purpose and account for expenditures made with grant dollars.
These deficiencies occurred because HSW did not have adequate expertise, personnel, or
accounting systems in place. As a result, federal funds were misused and grant project
accountability was not reliable or appropriately documented.

We found the following deficiencies with HSW’s financial management system:

        (1) HSW did not have documentation (timesheets) supporting labor cost. The grant
            agreement in the amount of $155,500 identified $150,000 to be used solely for labor

6
  The Project Archivist was not paid her December 2, 2009 paycheck and on December 11, 2009 met with both the
Project Director and the Executive Director. On December 20, 2009 the Project Archivist met with a HSW Board
member.
7
  $199,900 was received from the city of Washington D.C. and is the first installment of a one million dollar grant.
A second installment of $331,358 was received on February 11, 2010. The Executive Director stated HSW was in
the process of submitting a request for a third installment. We did not review the Washington D.C. grant referred to
by the Executive Director. We requested this document and a corresponding cash flow analysis to substantiate that
HSW has necessary funding to remain operational. We did not receive this documentation prior to the close of our
audit.
8
  While the Project Archivist’s net pay and benefits were made current as of January 27, 2010, HSW has not paid
approximately $9,525 in payroll taxes.


                                                        3
                                  National Archives and Records Administration
   expenses for a Project Archivist. HSW was unable to provide required personnel
   activity reports or timesheets to support labor expenses reportedly incurred. Both the
   HSW Executive Director and Grant Project Director stated they were unaware of
   federal regulations regarding timesheets to document the hours and productivity of
   the staff project archivist and, thus, did not have a process to record and document
   their labor costs.

   The employee contract for the Project Archivist indicated she would be paid $60,000
   per year for full-time employment with bi-weekly payroll payments. However, there
   was no signed time activity reports (timesheets) to substantiate (1) what hours were
   actually worked and (2) what work (projects) were completed. Without timesheets
   for review, we were unable to determine whether the Project Archivist consistently
   worked full-time on the project. As of February 26, 2010, HSW has incurred payroll
   and benefit costs of $27,159.

   Federal grant regulations state costs are reimbursable if they are reasonable,
   allowable, allocable for the performance of the award, and adequately documented.
   Specifically, OMB Circular A-122 states the distribution of salaries and wages to
   federal awards must be documented by personnel activity reports (timesheets). OMB
   Circular A-122 Appendix B paragraph (8) (m) entitled Support of salaries and wages,
   states activity reports must be maintained for all staff members whose compensation
   is charged, in whole or in part, directly to awards and must have the following
   attributes: a) reflect an after-the-fact determination of the actual activity of each
   employee (budget estimates do not qualify); (b) must account for the total activity for
   which employees are compensated; (c) must be signed by the individual employee, or
   by a responsible supervisory official; and (d) prepared at least monthly and must
   coincide with one or more pay periods.

(2) HSW’s accounting system could not provide accurate information regarding the total
    amount of grant program expenses that have been paid from federal monies. As of
    March 2010, HSW had one direct federally funded expense to account for—the salary
    and payroll expense paid for the Project Archivist. The HSW Contract Accountant
    provided an accounting transaction record for the Project Archivist and two separate
    off-line spreadsheets. All three accounting summaries provided to the auditors for the
    Project Archivist’s labor cost indicated different amounts and all were incorrect.
    Using HSW’s bank statements, auditors were able to calculate federal funds paid for
    net salary and health insurance.

(3) Payroll accounting records were not current; thus, payroll reports accurately
    identifying amounts withheld and employer tax contributions were not available
    during the audit. The HSW Contract Accountant stated payroll tax deposits including
    both the employer and employee portions have not been paid for the fourth quarter
    (calendar year 2009). Additionally, the Contract Accountant stated the issued W-2s
    for HSW employees were incorrect.




                                           4
                     National Archives and Records Administration
        (4) Accounting records were not current. Bank statement reconciliations were three
            months in arrears according to HSW accounting personnel responsible for the bank
            reconciliation process.

        (5) Cost share obligation 9 records were not maintained and cost reported was not
            accurate. We found the following cost share records were not kept: (1) timesheets
            for HSW personnel working on the project, (2) actual consultant/services/supplies
            cost, and (3) records for in-kind (noncash) volunteer services. The associated cost
            reported for cost share was not accurate as they were based on estimates and not the
            actual cost incurred. The Project Director stated she did not know how to calculate
            cost share or retrieve this information from the HSW accounting system; she stated
            she used the proposed budget estimate amounts for reporting to NHPRC their cost
            share portion of the total project cost.

        (6) HSW does not have effective control over federal funds as discussed in the paragraph
            above entitled HSW Misused Federal Funds. While the HSW accounting system has
            the capability to segregate federal funds, HSW has not engaged this accounting
            feature. At the exit meeting, the Executive Director stated HSW would set-up their
            accounting system to segregate out federally sponsored programs and would establish
            a separate bank account for the grant funds of this project.

        (7) HSW does not have a procedure in place to compare budgeted amounts to actual
            expenditures and currently uses budget estimates to report their cost share obligation.
            The approved budget used anticipated salary wage rate increases that did not happen
            and the percentage of time devoted to the project was not supported with personnel
            activity reports so that actual cost could be calculated. Thus, the reported grant
            project cost was not accurate as it was based on budget estimates.

        (8) HSW does not have written procedures to limit requests for advance payments to
            immediate cash needs by minimizing the time lapsing between transfer of federal
            funds and their appropriate disbursement. HSW has over requested federal funds by
            $13,000 for the two advancements representing a 28% excess of funds at their
            disposal with no corresponding appropriate expenditure.

        (9) HSW does not have any written accounting procedures associated with management
            of federal funds including procedures for determining the reasonableness, allocability
            and allowability of costs in accordance with the provisions of the applicable Federal
            cost principles and the terms and conditions of the award. The Executive Director
            indicated they did have written procedures; however, the Contract Accountant was
            not aware of their existence and could not provide them during the audit.

All federal grant recipients are required to establish and maintain accounting systems and
financial records to accurately account for funds awarded to them including financial records

9
 Minimum cost share obligation, according to the terms of the grant, was 54% of the actual project costs. The
approved grant budget identified that cost share would be met as follows: 57% for salaries and wages, 17% for
services/consultants/supplies, and 26% for in-kind (noncash) volunteer services.


                                                        5
                                  National Archives and Records Administration
associated with cost sharing or matching funds. Specifically, OMB Circular A-110, Uniform
Administrative Requirements for Grants and Agreement with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations, Paragraph 2.15.21 requires the grant recipient’s
financial management system provide the following:

   •   Accounting structures that provide accurate, current and complete information about all
       financial transactions related to each Federally-supported project.
   •   Records that identify adequately the source and application of funds for federally-
       sponsored activities. These records must be at least as detailed as the cost categories
       indicated in the approved budget and shall contain information pertaining to the source
       and application of cost share obligations. Third-party in-kind (non-cash) contributions
       also must be accounted for. Accounting records must be supported by source
       documentation according to federal regulations.
   •   Effective control over and accountability for all funds, property and other assets.
       Recipients shall adequately safeguard all such assets and assure they are used solely for
       authorized purposes.
   •   Comparisons of outlays with the budgeted amounts for each award.
   •   Written procedures to minimize the time elapsing between the transfer of funds to the
       recipient and the issuance of payments for program purposes by the recipient.
   •   Written procedures for determining the reasonableness, allocability and allowability of
       costs in accordance with the provisions of the applicable Federal cost principles and the
       terms and conditions of the award.

In interviews with HSW personnel, including the Executive Director, Project Director, and
Contract Accountant, reasons for the current lack of administrative capability were discussed.
First and foremost, is the lack of grant management experience. All those interviewed admitted
they lacked the necessary experience and knowledge to manage a federal grant project and were
unaware of federal regulations concerning financial accountability. The Executive Director
accepted full responsibility for the accountability deficiencies stating she was unaware of how
the grant project was administered by her staff, but that she was ultimately responsible and
should have been more active in her oversight of this grant project.

Further, the Executive Director explained that the delay in receiving significant funding strained
her ability to oversee the grant project as she had other pressing priorities. In addition, HSW lost
their CFO and could only afford part-time accounting services; the Executive Director was
unsure when full-time accounting services could be obtained. The HSW Executive Director
expressed optimism that HSW would overcome their financial instability and could obtain the
necessary knowledge to successfully complete the grant project. However, the Project Director
was unsure if it was wise for HSW to move forward with the grant project at this time and
thought HSW should focus on overcoming the effects of their financial hardship.

Because HSW misused federal grant funds and are unable to provide appropriate grant
management including adequate documentation to support the payroll cost, we questioned the
total cost expended to date on this grant of $27,159.




                                                    6
                              National Archives and Records Administration
Recommendation

We recommend the Executive Director of NHPRC:

   1. Either (a) terminate this grant or (b) temporarily withhold cash payments on this grant
      until all accounting/grant management deficiencies identified in this report are corrected
      by HSW and HSW is placed on Special Conditions status for the remainder of the grant
      project, and:

   2. Decide whether any grant funds expended ($27,159) should be disallowed based on lack
      of documentation (timesheets), general lack of grant management, and misuse of grant
      funds.

Please provide your written comments within 45 days regarding actions planned. Should you
have any questions, or require additional information, please contact me or James Springs,
Assistant Inspector General for Audits at 301-837-3000.




Paul Brachfeld
Inspector General




                                                  7
                            National Archives and Records Administration
                                                                                             Attachment 1
                                                                                               Page 1 of 2

                    SUPPLEMENTARY AUDIT REPORT INFORMATION


BACKGROUND

The NHPRC supports activities to preserve, publish and encourage the use of documentary
sources related to the history of the United States. Each year the NHPRC receives a
Congressional appropriation from which it awards grants. Additionally, NHPRC staff
implements NHPRC grant program policies and guidelines, provides assistance and advice to
potential applicants, and advises the Commission on grant proposals. Finally, NHPRC staff is
also responsible for monitoring each grant awarded by the Commission. To monitor grants
awarded, NHPRC staff ensures the grantee submits (1) annual financial status and narrative
progress performance reports and (2) a final financial and narrative performance report.

NHPRC awarded $155,500 to HSW for completion of a grant project entitled Archival and
Audiovisual Collections Project for a two year period from July 1, 2009 to June 30, 2011. HSW
received two advancements totaling $47,568 which covered grant expenses for the period July 1,
2009 through March 31, 2010. The performance objective of the subject grant project was
designed to improve public access to the archival and audiovisual collections held by HSW 10 and
included: (1) processing of 700 cubic feet of collections, (2) preparation of Encoded Archival
Description (EAD) finding aids for each collection processed, (3) converting 162 existing
finding aids to EAD, and (4) conducting a survey of audio-visual materials.

The HSW was founded in 1894 by a group of 36 men and women with the goal of “collecting
the scattered and rapidly disappearing records of events and individuals prominent in the history
of the city and District.” HSW’s current mission is to not only to collect and preserve the
documentation of the history and culture of the region, but to serve as an educational institution
that promotes an understanding of the Washington metropolitan area. To support its mission the
Historical Society of Washington, D.C. conducts educational programs; supports historical
research, and publishes a monthly newsletter (Washington Stories) and a semi-annual magazine
(Washington History).

The HSW, located in Washington D.C., is a nonprofit corporation under Section 501(c) (3) of the
Internal Revenue Code. As a nonprofit corporation receiving federal grant funds, HSW is
required to follow the cost principles specified in OMB Circular A-122, Cost Principles for Non-
Profit Organizations, and the Federal administrative requirements contained in OMB Circular A-
110, Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organizations.


10
  Archival collections maintained by HSW include the Hechinger Company Records, 1905-1997, the Ulysses S.
Grant 3rd Papers, 1860-1973, the DuPont Circle Citizens Association Records, 1920-2006, and the Dumbarton
United Methodist Church Collection, 1801-1998.


                                                      8
                                National Archives and Records Administration
                                                                                     Attachment 1
                                                                                       Page 2 of 2

OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our review was to determine whether funds utilized were expended in
accordance with federal guidelines. This audit report focuses on the results of our audit of the
HSW grant. A separate report will be issued addressing the overall grant program administered
by NHPRC and the results of all grantees visited during the audit including HSW.

To accomplish our objective we reviewed NARA and OMB guidance pertaining to applying for,
awarding, and administering grants. We reviewed all NHPRC documentation relating to the
HSW grant including the application, award notifications, and an interim narrative report.
Additionally, we reviewed HSW’s available financial and payroll records to substantiate grant
expenditures. Finally, we interviewed NHPRC and HSW officials.

Our work was performed at Archives I and at the Historical Society of Washington, D.C., both
located in Washington D.C. between March 2010 and April 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                                   9
                             National Archives and Records Administration
                                                                                                        Attachment 2

                   Table 1—Timeline of Events and Comparison of Grant Fund Balance to HSW
                                           Bank Statement Balance

                                                                                      Comparison of Grant Funds that should
                                                                                      have been available as evidenced with a
                                                                                      corresponding Bank Statement Balance
                                                                                      Grant         HSW Bank        Amount of
Date       Timeline Event                                                             Fund          Statement       Insufficient
                                                                                      Balance       Balance         Funds
09/30/09   HSW requested advance #1 from NHPRC for the period July1- December
           31 in the amount of $20,192.00
10/05/09   Project Archivist employment start date
10/06/09   Advance #1 is electronically transferred to HSW’s bank account             20,192.00      29,664.65      None
10/21/09   First payment due Project Archivist; Project Archivist is not paid         20,192.00       9,567.03      -10,624.97
10/28/09    First payment (1,586.01) is 7 days late to Project Archivist              18,605.99      41,795.26      None
11/04/09   Project Archivist is paid timely (1,586.01)                                17,019.98      22,426.23      None
11/18/09   Project Archivist is paid timely (1,586.01)                                15,433.97      18,814.13       None
11/30/09   HSW has a negative Bank Statement Balance                                  15,433.97      -2,725.57      -18,159.54
12/02/09   Project Archivist is not paid (balance owed 1,586.01); benefits (Nov)
           and payroll taxes have not been paid                                       15,433.97      -1,911.58      -17,345.55
12/11/09   Project Archivist meets with HSW Project Director and Executive Director
           concerning pay gaps                                                        15,433.97       4,034.36       -11,399.61
12/23/09   Project Archivist is paid 1,000— (balance 2,172.02 is 14 days late);
           benefits and payroll taxes go unpaid                                       14,433.97      18,039.62      None
12/24/09   From December 14-December 24 HSW deposits $225,000; yet does not
           pay all amounts owed for expenses on the federal grant project             14,433.97     216,578.33      None
12/30/10   Project Archivist is paid 3,172.02—(balance of 586.01 is 28 days late);
           benefits (Nov/Dec) and payroll taxes have not been paid                    11,261.95      76,479.48      None
01/08/10   HSW has a negative Bank Statement Balance                                  11,261.95        -739.75      -12,001.70
01/13/10   Project Archivist is not paid—(balance 2,172.02 is 42 days late);
           benefits and payroll taxes go unpaid                                       11,261.95       4,383.44       -6,878.51
01/19/10   Advance #2 is electronically transferred to HSW’s bank account
           ($27,376.00)                                                               38,637.95     29,380.43        -9,257.52
01/27/10   Project Archivist is paid 3,758.03 at 56 days late; Health benefits for
           November, December, and January have been paid totaling 1,307.87;
           no payroll taxes have been paid                                            33,572.05      29,695.76        -3,876.29
01/29/10   Auditor contacts HSW Executive Director to schedule the upcoming audit;
           audit begins March 3, 2010                                                 33,572.05     21,511.97        -12,060.08
02/02/10   HSW Bank Balance is still below grant fund minimum balance                 33,572.05      7,256.47        -26,315.58
02/11/10   HSW deposits $331,348                                                      33,572.05     353,041.19      None
02/13/10   Project Archivist is paid timely (1,586.01) including benefits for
           February (466.19)                                                          31,519.85     350,340.37      None
02/19/10   HSW Project Director contacts NHPRC stating HSW has used federal grant
           monies for HSW expenses not related to the grant. She states these funds
           were used due to a misunderstanding with the new staff accountant and
           because HSW lacked funds. She acknowledges that the Project Archivist
           had not always been paid.                                                  31,519.85     174,346.47      None
02/27/10   Project Archivist is paid timely (1,586.01); estimated taxes of $9,525
           have not been paid; fund balance after tax liability is $20,409; Closing   29,933.84     127,679.98      None
           February balance prior to March 3 audit field visit




                                                              10
                                         National Archives and Records Administration
                                                                                                       Attachment 3

                           Table 2—Salary and Wage Payments to Project Archivist


Scheduled    Gross          Employee         Employee      Employer      Net Payroll       Date Paid    Net Salary    Health
Payroll      Salary         Tax              Health        Tax           (amount due)                   Actual        Benefits
Date         plus           Withholding      Insurance     Liability                                    Amount        Actual
             Benefits 11                                   12
                                                                                                        Paid          Amount
                                                                                                                      Paid
10/21         2,538.46       721.68             00.00       230.77        1,586.01         10/28          1,586.01
11/04         2,538.46       721.68                         230.77        1,586.01         11/04          1,586.01
11/18         2,538.46       721.68                         230.77        1,586.01         11/18          1,586.01
12/02         2,974.42       721.68           435.96        230.77        1,586.01
12/16         2,538.46       721.68                         230.77        1,586.01         12/23          1,000.00
12/30         2,974.42       721.68           435.96        230.77        1,586.01         12/30          3,172.02
01/13         2,538.46       721.68                         230.77        1,586.01
01/27         2,974.42       721.68           435.96        230.77        1,586.01         01/27         3,758.03     1,307.87
02/10         2,538.46       721.68                         230.77        1,586.01         02/12         1,586.01
02/24         3,004.65       721.68           466.19        230.77        1,586.01         02/26         1,586.01      466.19
TOTAL        $27,158.67     $7,216.80        $1,774.07     $2,307.70     $15,860.10                     $15,860.10    $1,774.06




  11
    Benefits include employee health insurance and employer tax liability.
  12
    Auditor estimated employer payroll tax liabilities at 10 percent. HSW did not have a current payroll register
  indicating tax liabilities owed.


                                                          11
                                     National Archives and Records Administration
           National Archives and Records Administration
                                                                                   8601 Adelphi Road
                                                                  College Park, Maryland 20740-6001


Date:        August 6, 2010

To:          Paul Brachfeld
             Inspector General
             Office of Inspector General (OIG)

From:        Kathleen Williams
             Executive Director
             National Historical Publications and Records Commission (NHPRC)

Subject:     Response to OIG Report No. 10-15, Audit of the National Historical Publications
             and Records Commission Grant No. RB-50061-09 Historical Society of
             Washington, D.C.

This response addresses Office of Inspector General (OIG) Report No. 10-15, which audited
the National Historical Publications and Records Commission Grant No. RB-50061-09,
Historical Society of Washington, D.C. (Grant). The Report, which was issued by OIG on
June 23, 2010, questioned the entire cost incurred on the Grant to date ($27,159.00) due to
misuse of grant funds and poor management of the Grant, including a lack of supporting
documentation for labor costs.

The NHPRC, which notified OIG staff of the apparent difficulties being experienced by the
Historical Society of Washington, D.C. (HSW), has decided to terminate the Grant. HSW
was informed of the decision during a meeting on June 24, 2010, at which time HSW was also
informed of its obligation to produce a Final Report and associated documentation. Upon
review of the Final Report, received July 30, 2010, NHPRC will either terminate and close out
the Grant, or terminate and take further action as warranted. The NHPRC will notify OIG of
the actions it plans to take following review of the Final Report.

Discussion

Discovery of Grant Management problems

The two year grant of $155,500 was primarily designed to cover the labor costs of the Project
Archivist ($5,500 was for an AudioVisual Preservation Survey). The grant was awarded in
October 2009, and two advancements were made totaling $47,658 ($20,192 for July 1, 2009 –
December 31, 2009, and $27,376 for January 1, 2010 - March 31, 2010). On January 7, 2010,
the Project Archivist called NHPRC staff to report that her salary payments were irregular and
behind schedule. NHPRC immediately contacted OIG to discuss the matter, which resulted in
the OIG audit as well as an investigation. 1


1
 OIG Report of Investigation – File Number 10-008-I. The Office of the U.S. Attorney declined to prosecute,
citing insufficient evidence and the small amount of funds misused.


                                                1
Through discussions with HSW and OIG from January 2010 – April 2010, it became apparent
to NHPRC that although the Project Archivist generally appeared to be receiving her pay, the
HSW was not using the grant funds as specified under the Grant. For example, HSW used
Grant funds to pay other bills when other expected sources of income failed to materialize. It
also became apparent that HSW did not have the structure or expertise to manage a federal
grant. These problems are detailed in the OIG Report.

Meeting with HSW

On June 24, 2010, NHPRC and NGC met with Yvonne Carignan, Director of the HSW’s
Kiplinger Research Library (HSW Executive Director Sandy Bellamy was expected but did
not appear). During that meeting HSW was told that NHPRC had concluded that termination
of the Grant was appropriate. Although stating that programmatic achievements had been
made under the Grant, HSW agreed that termination made sense for both parties.

NHPRC explained that close out and termination requires the submission of a Final Narrative
Report, as well as other documentation, including: cost share accounting that will enable
NHPRC to determine if HSW properly matched funds as required by the Grant; time sheet or
other information to help document the hours worked by the Project Archivist; Grant
management improvements made by HSW; and programmatic achievements of the Grant.
NHPRC noted that failure to show how funds were expended may result in NHPRC seeking
restitution. NHPRC agreed to give HSW until July 30, 2010, to submit the Final Report. In
response to an inquiry from HSW on July 24, 2010, NHPRC provided additional guidance
regarding the information required. The Final Report with associated documentation was
submitted on July 30, 2010, and is currently being reviewed by NHPRC.

Termination terms and conditions

36 CFR 1210.61(a)(2) provides for termination of a grant by the NHPRC, in consent with the
recipient. The parties are to agree on the terms and conditions of the termination, including
the effective date, and in the case of a partial termination, the portion to be terminated.

Upon review of the Final Narrative Report and associated documentation, NHPRC will make
determinations regarding: has HSW accounted for all of the $47,568.00 advanced by NHPRC,
as well as its cost share toward the project; how well did the Grant’s achievements line up
with the stated Grant objectives; did HSW provide sufficient documentation to support a
finding that the $47,568.00 advanced by the NHPRC essentially went towards the salary and
associated costs of the Project Archivist.

Ultimately the terms and conditions of the termination will depend on the quality of the
documentation provided by the HSW.

Conclusion

At this time NHPRC cannot close out this Grant. NHPRC is examining the Final Report and
associated documentation, and will engage in any necessary follow up with HSW. NHPRC



                                               2
will inform OIG of the termination terms and conditions prior to finalization and close out of
this Grant.

Should you have further questions, please contact me at 202-357-5263.

KATHLEEN WILLIAMS
Executive Director
NHPRC




                                               3
